Department of Health and Human Services
                  OFFICE OF
   INSPECTOR GENERAL




STATE OVERSIGHT OF TOBACCO
      SALES TO MINORS




                '" SERVICt"


                              JU GIBBS BROWN
        ff


         '0
              "4
              'lQi'd30
                              Inspector General

                                   APRI 1995
                                 OEI- 02-94-00270
                  EXE         CUT        IV E           SUMMARY
PUROSE
To describe States ' activities to monitor and enforce their laws that prohibit tobacco sales
and distrbution to minors.



BACKGROUN

In 1992 , Congress amended the Public Health Service Act to include Section 1926, also
known as the Synar Amendment. This Section requires each State (including the District
of Columbia and the territories) to have a law by Federal Fiscal Year (FFY) 1994 that
prohibits the sale and distrbution of tobacco products to individuals under the age of 18.
Section 1926 also calls for the States to enforce these laws, to perform yearly, random
unannounced inpections to measure the level of tobacco sales to minors , and to report
yearly to the Secretary of the Deparent of Health and Human Services their progress in
reducing such sales. States that are noncompliant with the law can have their Substance
Abuse Prevention and Treatment block grant gradually reduced by up to 40 percent.
August 1993 ,  the Public Health Service issued a Notice of Proposed Rulemaking for these
requirements. . Even though final regulations have not yet been issued , the States have
been required to implement Section 1926.



The Subcommittee on Regulations, Business Opportnities , and Technology of the
Committee on Small Business of the 103rd Congress requested ths inspection to describe
the States '   progress in implementing this section.

The Substance Abuse and Mental Health Services Administration has reviewed all State
laws that prohibit tobacco sales and distrbution to minors and has found that the States
are in compliance or actively working towards compliance. In order to avoid duplicative
work , this report only examines the inspection and enforcement components of Section
1926. All data used in this report is
           testimonial evidence provided by the interviews with
State offcials.             

FINDINGS

Most States Have Peiformed Unannounced Inspections to Monitor Compliance, But
Most Do Not Use Scientific Sampling

Eighty- five percent of the States report performing inspections to monitor tobacco sales to
minors in Federal Fiscal Year 1994. Of these States , a majority do not use scientific
sampling techniques to select the sample of vendors that wil be inspected.     Scientific
selection allows the results from the inspections to be generalized to the universe of all
vendors in the State. Many of the States that are using scientific sampling chose vendors
randomly from lists of all vendors maintained for licensing or taxation purposes. A few
 States that did not have such lists were able to create scientific samples by using cluster
 sampling technques.

A Majority of States Do Not Have Statewide Enforcement

Fifty-six percent of the States report no statewide enforcement activity. This includes 30
percent that report no enforcement activity at all and 26 percent of the States that only
have some localities within the State enforcing the law. Another 24 percent of the States
report that their main enforcement activity consists solely of the inpections used to check
noncompliance with their State tobacco law. While Section 1926 distinguishes between
inspections to check effectiveness and those used to enforce , these States do not.

States Cite Obstacles In Peiforming Inspections and Enforcement

States report the following problems with implementing Section 1926:

       Inadequate guidance and techncal assistance from the Departent of Health and
       Human Services -- Twenty-one percent of the States report receiving no guidance
       and 36 percent report receiving minial guidance from the Departent.

       Lack of a sense of priority given to State tobacco laws -- Often , enforcement is the
       responsibility of local police who are concerned with more serious crimes.

       Lack of necessary tools -- States report that the lack of a central listing of vendors
       for sampling purposes and legal problems in using minors for inspections.

       Lack of resources -- States feel they do not have the funds to implement Section
        1926 and stil fund the same level of substance abuse treatment or law€
       enforcement.


CONCLUSION

The States have found the implementation process diffcult. They are using  different
methods in attempting to implement section 1926 and overcome the obstacles that have
arisen. The most frequently cited obstacle mentioned was the lack of guidance in
implementation , particularly due to the lack of final regulations.

While the final regulations wil greatly help the States , they need more than the
regulations to successfully perform inspections and enforce their State laws prohibiting
tobacco sales and distribution to minors. The States wil need technical assistance on how
to meet the requirements spelled out in the regulations. The Public Health Service has
prepared a technical assistance guide and conference for the States. It plans to provide
this assistance upon the release of the final regulations.
 AGENCY COMMNTS

. We received comments from the Public Health Service. They agree that the report
 provides an informative look at States ' efforts to comply with statutory requirements and
 prohibit the sale and distribution of tobacco to minors.




                                             iii
                 .. .. .. .. .. ... ... ... ... .
                                                .. ... ... ... ..
                                                                ..
                                                                . ............................
                                                                                             ... .... ... ... .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . .




                      TABLE OF CONTENTS

                                                                                                                                                           PAGE

EXECUTIV SUMMARY€
INRODUCTION                                                                                                                                    . . . . . . . 1€


FIINGS. .                                                                                                                               . . . . . . . . . 5€


  . Unannounced      Inspections. . . . . . . . . . . . . . . . . . . . . . . . : . . . . . . . . . . . 5€
. . Statewide Enforcement                                                                                                                                        . . 7€


 . Obstacles.                                                                                                                        . . . . . . . . . . 9€


CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11€
APPENDIX A . . .                                                                                                 . . . . . . . . . . . . . . A-
                                              , "





                               INTRODUCTION

 Purpose: To describe States '     activities to monitor and enforce their laws that prohibit
 tobacco sales and distribution to minors.
 Background: In 1992 , Congress amended the Public Health Service Act to include
Section 1926 , also known as the Synar Amendment. This Section , created to strengthen
State efforts to reduce the sale of tobacco products to youth , requires each State (including
the District of Columbia and the territories) to have a law by Federal Fiscal Year (FFY)
1994 that prohibits the sale and distribution of tobacco products to individuals under the
age of 18. (A few States are exempt until FFY 1995 , since their legislatures meet only
once every two years. ) Section 1926 also calls for the States to enforce these laws , to
perform yearly, random , unannounced inspections to measure the level of tobacco sales to
minors, and to report yearly to the Secretary of the Departent of Health and Human
Services their progress in reducing such sales. States that are noncompliant with the law
can have their Substance Abuse Prevention and Treatment block grant gradually reduced
by up to 40 percent.

The Subcommittee on Regulations , Business Opportnities , and Technology of the
Committee on Small. Business of the 103rd Congress requested this inspection to describe
the States '   progress in implementing this section.

CDC Research

The Centers for Disease Control and Prevention (CDC) has been heavily involved in
researching tobacco sales and distribution to minors. It estimates that as many as one
millon American minors start to smoke each year , or almost 3 000 per day. In
 Preventing Tobacco Use Among Young People: A Report of the Surgeon General " CDC
reports that 13 studies have been conducted since 1987 to measure the rate that minors can
purchase tobacco products. They have shown that young smokers are able to buy
cigarettes even though most States have laws that prohibit the sale of cigarettes to minors.
The studies examined over-the-counter sales and found that successful purchases of
tobacco products by minors ranged from 32 percent to 87 percent , with an approximate
weighted average of 67 percent. Eleven of the studies found that at least a majority of the
minors who attempted a purchase were successful. Nine of these studies examined
vending machine sales and found that successful purchases by minors ranged from 82
percent to 100 percent , with an approximate weighted average of 88 percent.


Past OIG Involvement

The Offce of Inspector General (OlG) of the Department of Health and Human Services
has conducted two inspections on this topic. In 1990 , the OIG surveyed States ' laws on
the sale of cigarettes to minors. Its report Youth Access to Cigarettes " indicated that

not enforcing them.
at that time , 45 States had such laws prohibiting the sale of cigarettes to minors , but were
  In 1992 ,   the OlG again looked at the characteristics of State and local laws limiting
  tobacco sales to minors and their level of enforcement. It reported that:      (1) all but thee
  States banned the sale of tol:acco to minors under the age of 18; (2) only two States were
  enforcing their laws restricting the sale to minors Statewide; (3) four States were funding
  local initiatives restricting the sale to minors; (4) low priority by police and lack of a
  designated enforcing agency were seen as . obstacles to enforcement; (5) despite lack of
  State effort, some localities were demonstrating enforcement is possible; and (6) vending
  machine restrictions were the most common initiative. Along with vending machine
  restrictions , some localities that were doing enforcement tended to use " stings. " A sting
  consists of a minor , under adult supervision , attempting to buy tobacco products from a
  vendor.

  The Secretary s Model Law

 The first OIG report contributed to the development in 1990 of the Secretary s " Model
 Sale of Tobacco Products to Minors Control Act: A Model Law Recommended for
 Adoption by States or Localities to Prevent the Sale of Tobacco Products to Minors. "
 This model law was distributed to each Governor in the countr, State health departent
 officials , anti-smoking groups , experts in the youth smoking field and the few localities
 that had established and were enforcing youth access laws.

 The model law called for: (1) licensing of vendors and revocation of their license if they
 sell to minors; (2) a graduated schedule of penalties so that vendors and employees are
 punished proportionate to their violation of the law; (3) penalties for failing to post signs;
 (4) designating an agency responsible for enforcement; (5) civil , in addition to criminal
 penalties , to avoid overloading the criminal justice system; (6) an age of legal purchase of
 at least 19; (7) bannng or greatly restricting access to vending machines; and (8)
 miniizing the burden of compliance on outlets.


 Notice of Proposed Rulemaking

 In August 1993 ,   a Notice of Proposed Rulemaking (NPRM) for Section 1926 was issued
 for comment. Federal implementation of ths Section is the responsibility of the Substance
 Abuse and Mental Health Services Administration (SAMHSA) of the Public Health
 Service. Its Center for Substance Abuse Prevention prepared the NPRM , in collaboration
 with CDC. The NPRM' s purpose is to solicit concerns and. comments from the public
 regarding the proposed rule and is non-binding on the States. The public had until
 October 25 ,   1993 to submit comments.

 The NPRM elaborates on the responsibilities of the States under Section 1926 and
 proposes that , along with a law limiting youth sales , the States must have other " well-
  designed procedures " for limiting tobacco sales and distribution to minors. Such
  procedures could include a licensing system , graduated penalties for ilegal sales , and
  controls on vending machines that limit their location to places that youth are not allowed
. to frequent , such as bars.
 The proposed rule states that the requirement of random , unannounced inpections of the
 vendors of tobacco products must be performed in a scientifically sound manner. States
 wil be out of compliance if they find though these unannounced inspections more than 50
 percent ilegal sales during the first year of implementation (FY 1994), 40 percent during
the second year (FY 1995), 30 percent the third year (FY 1996) and 20 percent during the


year.
fourt year (FY 1997). They would have' their block grant reduced 10 percent the first
year , 20 percent the second year , 30 percent the third year and 40 percent in the fourt


The NPRM limits the amount of block grant funds States are allowed to use to enforce
their laws and inspect compliance. They can only use part of the five percent of the grant
allowed for administrative expense to " provide techncal assistance to communities to
maximize procedures for enforcing the law regarding tobacco. " This money can not
used for the prosecution of entities or individuals who do not comply with the law since it
is not " true prevention and treatment activity. "

Implementaton of Section 1926

Final regulations have not yet been issued. Comments have been received by SAMHSA
which has incorporated them into draft final regulations which , at the time of this
inspection, are in the Departent' s review process. The Governor of each State were
informed by SAMSA in June of 1994 that even without the release of the regulations
they are responsible for implementing Section 1926 in FFY 1994. States not in
compliance in FFY 1994 could have their FFY 1995 block grants reduced.

Since October 1 , 1993 ,   the States have been required to have laws that ban sale of tobacco
products to minors. Throughout FFY 1994 , States should have conducted inspections to
measure compliance with their State law. They also must submit a report to the Secretary
describing the enforcement activities for FFY 1994 attched to their application for the
FFY 1995 block grant. They are currently applying for ths grant and have until March
  , 1995 to do so.



The Substance Abuse and Mental Health Services Administration has reviewed all State
laws that prohibit tobacco sales and distribution to minors and has found that they are in
compliance or actively working towards compliance. In order to avoid duplicative work
this report only examines the inspection and enforcement components of Section 1926.

Other Government and Non- Profit Agency Activities

Other Federal government activities focused on limiting tobacco sales and distribution to
minors may complement some States ' activities to implement Section 1926. The National
Cancer Institute has been working with the American Cancer Society, State and local
health departents and organizations to reduce the number of youths smoking though
 Community Intervention Trial for Smoking Cessation " (COMMIT) and " American Stop
Smoking Intervention Study for Cancer Prevention " (ASSIST). These two programs work
with many cities and States to create programs to prevent and control tobacco use. The
CDC has awarded " Initiatives to Mobilze for the Prevention and Control of Tobacco
Use " (IMPACT) grants to many States ' health deparents. These grants are to help
contribute to tobacco prevention and control programs withn the States. In the private
sector , the Robert Wood Johnon Foundation has a grant program available to States and
communities known as " Smokeless States " whose purpose is to reduce the number of
children who start using tobacco.

Methodology:. Information from meetings with some State health and tobacco control€
officials and a literature review were used to develop a questionnire. All      50 States , the
District of Columbia , Puerto Rico , American Samoa , and the United States Virgin Islands
were interviewed over the telephone , during November 1994 , using the questionnaire.
Attempts to reach the territories of the Commonwealth of Nortern Mariana Islands , the
Federated States of Micronesia , Guam , the Marshall Islands, and Palau could not be€
completed in a timely manner.€

The intial telephone calls were to the head of the agency responsible for the Substance

Abuse Prevention and Treatment block grant. Often, ths individual referred the

interviewer to , the person withn the substance abuse agency specifically responsible for€
the implementation of Section 1926. While several respondents were needed to answer all€
of the questions, only one questionnaire was used for each State or territory.€

Once all interviews were completed , the data were entered into a database. Frequency
distributions and cross-tabs were performed from this database.

All data used in this report is testimonial evidence provided by the interviews with State€
offcials. We did not validate the data though any other methods.€


The term " States " is used in ths report to mean all of the States , the District of
Columbia , and the thee territories interviewed.
                                  FINDINGS€
MOST STATES HAVE PERFORMD UNANOUNCED INSPECTIONS TO
MONITOR COMPLIACE, BUT MOST DO NOT USE SCilNTIFIC SAMLING

Eighty- five percent of the States report performing some random , unannounced inspections
in FFY 1994. For those that perform them, the number of inpections vary greatly from
State to State , ranging from 4 to almost 13 00. The median number is 320. The
percentage of tobacco vendors found out of compliance also varies greatly from State to
State, ranging from 6 to 84 percent , with a median percentage of 54.

Eight States did not perform random , unannounced inspections in FFY 1994. Among
these States , four were exempt from performing inspections due to delayed applicabilty;
four did not do inspections, even though they were responsible for them. All States are
responsible for performing inspections in FFY 1995.

A Majori of States Do Not Use Scientific Sampling
Only 42 percent' of the States that perform inspections use scientific sampling technques
in a statewide inspection effort. Scientific selection allows the results from inspecting a
sample of tobacco vendors to be generalized to the universe of all vendors in the State.
Many of these States choose tobacco vendors randomly from lists of all vendors
maintained for licensing or taxation purposes. A few States have created scientific
samples without such lists. These States use cluster sampling techniques where the State
is broken down into geographic areas and the number and type of vendors are estimated
from other sources. Quota samples for each type of vendor are then drawn in each
geographical area.

Another 38 percent of the States doing inpections report having a statewide inpection
effort , but the vendors are selected in a nonscientific manner. Their results cannot be
generalized for all vendors in the State. The remaining States (20 percent) that do
inspections do not have a statewide inspection effort , but have some localities that
performed random , unannounced inspections.

A Majority of States Peiforming Inspections Use Stings

A majority of States (71 percent) perform sting operations , which can be either
unconsummated or consummated.      -Seventeen percent of the States perform
unconsummated stings , which occur when a minor attempts to buy a tobacco product , but
does not complete the sale. Once offered the sale by the store clerk , the minor pretends
to have forgotten his or her money and leaves the store. Fifty- four percent of the States
performed consummated stings , where the minor actually buys the tobacco product. (See
Figure 1.)
                                                         ':':.;:"':':'




                                           Figure 1


                              nscection Activity€
              Percentage of         tates Reporting Inspection Activity

                       n=29
                                                                          Legend
                                                                         Consummated Sting€
                                                                         Unconsummated Sting€
                                                         1Hii Observed Bu€
                                                                         No Inspections€
                                                         II Delay             Applicabilty




                                 Inspection Type


Fifteen percent of the States use observed buys as their method of inspection. An
observed buy consists of an individual going into a store that sells tobacco products arid
watching for ilegal tobacco sales for some specified period of time. While most of the
States that use observed buys do so only to comply with Section 1926 , a few report doing
observed buys as part of their routine inspection of retail establishments.

The Type of Agencies Assigned Responsibility for Inspections Varies by State€

States take a variety of organizational approaches to implement the inspection requirement
under Section 1926. While a majority designate a State health departent as responsible
for ensuring that the inspections are performed , many States designate a State regulatory
agency, such as the Department of Taxation or the Alcoholic Beverage Commission
(ABC). (See Table 1.) A smaller percentage of States assign the responsibility to the
State police , local police or local health departments.

The responsible agency does not always perform the inspections itself. Some responsible
agencies delegate to or contract with other agencies to actually perform the inspections.
In these States , agencies are delegating the inspection role to local agencies, (See Table
1.)
                                             Table 1


                            Types of Agencies Responsible for
                            and Actually Conducting Inspections


                                       Responsible Agency            Inspecting Agency
  State Health
                                61 %                         46 %
  State Regulatory
                            22 %                         22 %
  State Law Enforcement
                        7 %                          2 %
  Local Health                                  4 %                          8 %
  Local Law Enforcement                         4 %                         13 %
  Local Volunteer Group                         0 %                         4 %
  Both State and Local                          2 %                         4 %
  Agencies Involved

  Outside Contractor                            0 %                         2 %
  *Inspectmg Agency column does not equal 100 percent due to roundmg



A MAORfY OF STATES DO NOT HAVE STATEWIE ENFORCEMENT
Just over half (56 percent) of the States report no statewide enforcement activity. This
includes the 30 percent of the States that report no enforcement activity at all and the 26
percent of the States that only have some localities within the State enforcing the law.
(See Figure 2.

Another 24 percent of the States report that their main enforcement activity consists solely
of the random , unannounced inspections used to check compliance with their State tobacco
law. While Section 1926 distinguishes between inspections to check effectiveness and
those used to enforce , these States do not. Most of the States using their inspectimls
process as enforcement penalize vendors found sellng tobacco to minors. However , two
such States report not penalizing vendors.
                                          Figure 2

                         Enforcement Activitv€
               Percentage of States Reporting Main Enforcem Eft       Activity




                                                                    Legend
               n=16                                               No Activity
                                                                  Local Enforcement€
                                                                  Inspection Stings€
                                                                  Routine Inspections
                                                              II Answer Complaints
                                                                  Statewide Stings€


                                                     n=3


                            Enforcement Type€




The remaining States use varying methods to enforce their law statewide. Only six
percent of the States use stings as their main statewide enforcement activity. The stings
performed in these States for enforcement are in addition to those performed for the
unannounced inspection process. Other States respond to complaints of tobacco sales to€
minors (8 percent) and include tobacco sales as par of routine health or liquor inspections
(8 percent).




State Regulatory Agencies and Local Law Enforcement Have Main Enforcement Roles

As with inspections , States have made a variety of agencies responsible for enforcement.
Local law enforcement agencies have this role in 35 percent of the States. Aside from the
local police, State regulatory and , to a lesser degree , State law enforcement agencies are
frequently the responsible organizations. (See Table 2. ) Often , law enforcement agencies
are responsible since the State laws prohibiting tobacco sales and distribution to minors
are criminal laws , rather than civil laws.
                                                  Table 2€

                              Types of Agencies Responsible for€
                             and Actually Enforcing the State Law€


                                        Responsible Agency             Enforcing Agency€
   State Health€                                     7 %
                     6 %

   State Regulatory                                 26 %
                     24 %

   State Law Enforcement€                            17 %                     6 %

   Local Health
                                     4 %
                     8 %

   Local Law Enforcement€                           35 %
                     46 %

   Both State and Local€                             8 %
                     8 %

   Agencies Involved


   Agency Not Determined Yet                 4 %                              4 %

   *Colurns do not equal 100 percent due to roundmg


States ' local law enforcement agencies are more likely to actually do the enforcement than€
be responsible for it. Forty- four percent of the States use local police ,
                                                                         but only 35
percent of the States designate local police as the enforcers. (See Table 2. ) In this
situation , the State police responsible for enforcement are generally deferring to local
police to actually do it.


STATES CITE OBSTACLES IN             PERFORMING              INSPECTIONS €
ENFORCEMENT€

States report various problems with the inpection and enforcement provisions of Section

1926. States believe they have received little or no guidance from the Departent of
Health and Human Services , lack the sense of a priority to enforce their State laws , lack
the necessary tools and authority and lack the resources to effectively meet the objectives
of Section 1926.



Twenty-one percent report receiving no guidance and 36 percent report receiving minimal
guidance from the Departent. In contrast , 30 percent of the States feel the Departent
provides adequate guidance. The remaining States do not believe they need guidance or
realize that the Department is not able to respond to their technical questions without the
release of final regulations.



Thirty-five percent of the States believe the lack of priority given to State tobacco laws€
hinders enforcement. They report that the agency responsible for enforcement puts other€
matters ahead of enforcing the State law. Generally, enforcement is the responsibilty of
local police who are more concerned with violent crime , theft and ilegal drugs.

Another frequently cited obstacle is the lack of the necessary tools needed to perform
inspections. Twenty- four percent of the States have difficulties conducting the inspections
due to the lack of a central listing of vendors. Some States (20 percent) have legal or
ethical problems in using youth in the inspection process. In some of these States it is
ilegal for minors to possess tobacco , sousing them in consummated buys is an ilegal
action. Other States considerate it inappropriate to include children in police- type
activities.

States also report a lack of resources as a problem. Thirty percent say they do not have
enough money to perform the required inspections and 19 percent claim to have
inadequate resources to enforce their State tobacco law. They stated that they cannot
devote resources to the implementation of Section 1926 and stil fund the same level of
substance abuse treatment or law enforcement.

States have attempted to address this obstacle by using different sources for funding
implementation. While a majority of States (63 percent) fund inpections though the
operating budget of the agency doing the inpections , some have tried other sources for
funds. These States use the administrative funds from the Substance Abuse Prevention
and Treatment block grant , taxes , license fees , or other grant money to fund inspections.
(See Figure 3.

                                            Figure 3


                              Inspection Funding
              70 Percent of Inspecting States Reporting Funding Source
              65    n=31

                                                               Legend
                                                             Operating Budget
                                                             Block Grant Admin $
                                                         MM Taxes\Ucense Fees
                                                         MM No Cost\Volunteers
                                                             Other Grants
                            n=7



                                Funding Source
Of the States actively enforcing their State law , 80 percent fund it though the operating
budget of the agency responsible. As with inspections, States find this a burden on
already tight budgets. Ten percent of enforcing States are using the administrative dollars
of the block grant. (The NPRM proposes not allowing Substance Abuse Prevention and
Treatment block grant dollars to be used for enforcement. ) The remaing States use
taxes , licensing fees or other grants for funding. (See Figure 4.



                                          Figure 4


                        Enforcement Funding

              Percent of Enforcing States Reporting Funding Source
                n=32

                                                               Legend
                                                              Operating Budget
                                                         1m Block Grant Admin $
                                                              Taxes\Ucense Fees
                                                              Other Grants



                            n=4       n=3
                                                n=1

                             Funding Source




CONCLUSION

At this early stage in the implementation of Section 1926 , the main area of progress has
been in conducting inspections to measure the level of compliance with State laws. While
most States have performed some inspections , the rate of enforcement has not changed
greatly over the last few years. The previously mentioned OlG reports found that most
States were not enforcing their laws limiting tobacco sales and distribution to minors.

The States have found the implementation process difficult. They are using different
methods in attempting to implement section 1926 and overcome the obstacles that have
arisen. The most frequently cited obstacle mentioned was the lack of guidance in
implementation , particularly due to the lack of final regulations.
While the final regulations wil greatly help the States, they need more than the
regulations to successfully perform inspections and enforce their State law prohibiting
tobacco sales and distribution to minors. The States wil need techncal assistance on how
to meet the requirements spelled out in the regulations. The Public Health Service has
prepared a technical assistance guide and conference for the States. The guide includes
discussions on inspections technques, potential sample frames and enforcement strategies
as well as an overview of Section 1926. It plans to provide this assistance upon the
release of the final regulations.





AGENCY COMMNTS

We received comments from the Public Health Service. They agree that the report
provides an informative look at States ' efforts to comply with statutory requirements and
prohibit the sale and distribution of tobacco to minors. The full text of their comments is
provided in Appendix A.
APPENDIX A




 AGENCY COMMNTS
   "'''                              &.


               DEPARTMENT OF HETH         HUMA SERVICES           Public Helt   Seic

+.t"""'G
                                                                   Memorandum
                      APR 2 0 1995


       From    Deputy Assistant Secretary for Health (Management and Budget)



       Subje   Office of Inspector General (OIG) Draft Report " State
               Oversight of Tobacco Sales to Minors, " OEI- 02- 94- 00270
               Inspector General, OS


               Attached are the Public Health Service (PHS) comments on the

               subject OIG draft report. We believe that the report provides

               an informative look at the States' efforts to comply with

               Section 1926 of the PHS Act and prohibit the sale and

               distribution of tobacco to minors,




                                                    1:1:
               Attachment
     PUBLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF

     INSPECTOR GENERA (OIG) DRAT REPORT" STATE OVERSIGHT

  OF TOBACCO SALES TO MINORS, " OEI- 02- 94- 00270, FEBRUARY 1995



Under Section 1926 of the PHS Act, each State- as a condition
of receiving a Substance Abuse Prevention and Treatment (SAPT)
block grant-- is required to have a law that prohibits the sale
and distribution of tobacco products to persons under the age
of 18. In  addition, , Section 1926 calls for States to enforce
these laws; perform yearly, random, unannounced inspections;
and submit annual reports to the Secretary which describe,

among other things, their success in reducing such sales.


This OIG inspection describes the States   ' activities to

comments.
monitor and enforce their laws prohibiting the sale and
distribution of tobacco to minors. Since the report contains
no specific recommendations, we offer the following general

Overall, we found this report to be very informative and

consistent with the knowledge that we have about

implementation of Section 1926 of the PHS Act by the States.

The report also presented a balanced view of the Federal

efforts and constraints.


Some of the comments in the report reference the Notice of

Proposed Rulemaking (NPRM) requirements and the level of State

implementation. It should be noted that the NPRM was not in

effect during the time of the OIG review. Although some
States may have ' tried to meet the letter of the NPRM, most of
them did not since they were awaiting the final rule. One
such example in the OIG draft notes that a majority of the
States do not use scientific sampling techniques to select the
sample of vendors to be inspected. Section 1926 does not
require a scientific sampling method; it merely requires that

random, unannounced inspections be conducted and that States

enforce the law in a manner that can reasonably be expected to

reduce the extent to which tobacco products are available to

minors. The term " scientifically sound" appeared in the NPRM
and the States were not held being accountable for this
requirement in Fiscal Year (FY) 1994. To assist the States
wi th sampling, the Centers for Disease Control and Prevention
(CDC) is in the process of developing a sampling methodology.

The OIG draft also reports that the majority of States do not

have statewide enforcement activities. Based on the Substance

Abuse and Mental Health Services Administration s (SAMSA)

review of the SAPT block grant applications , and in

conversations with State representatives, it appears that many

States wish to begin the enforcement process by working with

tobacco merchants in a spirit of cooperation. Therefore , for

many States, the first step was not , to identify violators but

rather to educate the community of merchants on the State

youth access law. We believe that education is an important
precursor and there is evidence that law enforcement
strategies are more effective if coupled with merchant
education. In many cases this educational process was
extended to youth and the community at large as well.
The OIG draft describes obstacles faced by the States in
implementing Section 1926. Insufficient guidance and a lack
of technical assistance from the Department were among the
obstacles reported. During development of the final rule,
SAMSA found itself in an awkward position with regard to
providing guidance. First, until a final rule is published
it is difficult to inform States on what the Department plans
to require of States in enforcing their laws. Second , SAMSA
believed that it was important not to meet with outside
individuals or groups because, given the controversial nature
of the proposed regulations and the numer of requests for
such meetings, it would be impossible to meet with everyone to
discuss the NPRM. SAMSA was advised by the Office of the
General Counsel that if they met with some groups to discuss
the NPRM but not with others, it could create an appearance of
unfairness which , could compromise the rulemaking process.
believe that these circumstances should be clearly stated in
the OIG report.

The OIG correctly reported that the absence of a final rule
hindered the States. As noted above , with the regulatory
process still underway, SAMSA was unable to address specific
questions and concerns. SAMSA sought to provide a variety of
broad suggestions rather than to respond with " how to
statements.  However, in addition to responding to inquiries
made by phone, the Center for Substance Abuse Prevention did
discuss the overall requirements of Section 1926 with State
Substance Abuse Directors at a variety of major conferences.

As noted in the report, SAMSA has plans underway to provide
the much-needed technical assistance upon publication of the
regulation. These activities include a technical assistance
workshop, which is to take place approximately 2 months after
publication of the final rule. In addition, a guideline,
being developed in conjunction with the Office on Smoking and
Health CDC, will provide clear direction on the requirements
of the final regulation , discuss activities, and provide
references. A technical appendix will be included for areas
requiring a greater level of detail. At this point, however,
due to the delay in issuing the final rule, SAMSA and CDC
have agreed to separate the CDC portions from the SAMSA
guidelines. This will  permit CDC to proceed with their
overall youth access campaign, of which a youth access
guideline had originally been a part.
The OIG draft report indicates that four States, responsible
for conducting random, unannounced inspections   in   FY 1994,   did
not do so. We cannot as yet confirm this statement since we
have received fewer than half of the States' SAPT block grant
FY 1995 applications which would provide us with the

information on their inspections. However, SAMSA' s review of

the applications thus far submitted, has found documentation

from all States indicating that random, unannounced

inspections were conducted. In some cases , the States did  not
carry out the inspections directly, but worked closely with
coalitions and/or county and local groups who performed the
inspections.
Technical Comments


Page 1, third sentence under CDC Research, we suggest that the
sentence be restated as follows : " In preventina Tobacco Use
Amona Youna People: A Report of the Suraeon General , CDC
reports that 13 studies....
The OIG report uses the term " sting" when describing certain
inspection acti vi ties. We suggest that it may be preferable
to use the term " compliance check.
